No. 19-464
IN THE

Supreme Court of the United States
VETERANS CONTRACTING GROUP, INC.,
Petitioner,
v.
UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF FOR PETITIONER

JOSEPH A. WHITCOMB
ANDREW R. NEWELL
WHITCOMB, SELINSKY,
MCAULIFFE, P.C.
2000 S. Colorado Blvd.
Tower 1, Suite 9500
Denver, CO 80222
(303) 534-1958

THOMAS G. SAUNDERS
Counsel of Record
JOSHUA M. KOPPEL
JUSTIN BAXENBERG
JACK STARCHER
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6536
thomas.saunders@wilmerhale.com

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................... ii
ARGUMENT........................................................................ 1
I.

THE PETITION PRESENTS AN IMPORTANT
QUESTION THAT WARRANTS THE COURT’S
REVIEW .......................................................................... 3
A. The Federal Circuit’s Decision Created
Two Related Circuit Splits .................................. 3
B. The Government’s Extensive Discussion
Of Remedies And Discretion Is
Irrelevant To The Question Presented ................ 8

II. THE CASE IS NOT MOOT ............................................ 10
CONCLUSION ................................................................. 12

ii
TABLE OF AUTHORITIES
CASES
Page(s)
Cardinal
Chemical
Co.
v.
Morton
International, Inc., 508 U.S. 83 (1993) .................... 10
Dalton v. United States, 816 F.2d 971 (4th Cir.
1987) ........................................................................... 3, 6
Kingdomware Technologies, Inc. v. United
States, 136 S. Ct. 1969 (2016) .............................. 10, 11
PGBA, LLC v. United States, 389 F.3d 1219
(Fed. Cir. 2004) ....................................................... 9, 10
United States v. Munsingwear, Inc., 340 U.S.
36 (1950) ................................................................... 2, 11
United States v. Nova Scotia Food Products
Corp., 568 F.2d 240 (2d Cir. 1977) .......................... 5, 6
OTHER AUTHORITIES
Department of Veterans Affairs, Definitive
Contract PIID 36C24218C0115 (last
modified
June
5,
2019),
https://www.usaspending.gov/#/award/CO
NT_AWD_36C24218C0115_3600_-NONE_-NONE- ..................................................................... 10

ARGUMENT
In opposing certiorari, the government only underscores why this Court’s review is necessary. The government spends just a few paragraphs (at 8-9) trying to
defend the Federal Circuit’s actual holding: that the
VA’s decision to deny VCG’s bid and cancel the solicitation was lawful. In doing so, the government parrots
the Federal Circuit’s sweeping logic, arguing that because the individual contracting officer did not know
VCG’s removal from the VetBiz database was unlawful
at the time he rejected VCG’s bid, the officer’s decision
was necessarily not arbitrary and capricious. But that
myopic approach to arbitrary-and-capricious review—
focusing on the subjective knowledge of an individual
rather than the agency, and upholding agency action in
isolation even though it was based entirely on an earlier, unlawful agency action—conflicts with the approach
taken by other courts of appeals. Pet. 10-14.
That other courts of appeals disagree with the
Federal Circuit’s approach should come as no surprise.
The logic of the decision below allows the administrative state to engage in a Kafkaesque shell game. As
exemplified by the government’s position in its opposition here, the Federal Circuit’s decision empowers the
government to shield unlawful agency conduct by refocusing review on the subjective knowledge of an individual agency employee, thereby allowing an agency to
rely on concededly unlawful decisions to justify other
agency decisions taken in direct reliance thereon.
Rather than seriously engaging with the sweeping
and irrational implications of that approach, the government spends much of its opposition attempting to
reframe this case as a dispute about the proper remedy
for the VA’s unlawful decision to remove VCG from

2
VetBiz in the first place. But those arguments ignore
the Federal Circuit’s actual holding. The decision below did not consider the question of remedy because it
held that the VA’s decision to cancel the solicitation
was lawful and that no remedy was warranted. The
government is thus simply wrong to suggest that this
case raises a dispute about whether the Federal Circuit
was required to set aside the cancellation “even if the
cancellation itself was lawful.” Opp. 7-8.
The government also suggests that certiorari
should be denied because the factual record “fails to account for changes in the status of the roof repair due to
the passage of time.” Opp. 14. The government does
not claim there have been such changes, despite bearing the burden to come forward with evidence. This is
presumably because it knows that performance is not
complete. But even if it were, the Court would still
have jurisdiction under the cases the government itself
cites. And failing that, the Federal Circuit’s decision
still could not stand because a finding of mootness
would require vacatur under United States v. Munsingwear, Inc., 340 U.S. 36, 39 (1950).
The Court should not allow the government’s response to distract from the important legal question in
this case. Certiorari is necessary to resolve the two
splits identified in the petition (at 12-13) and to reinforce fundamental principles of administrative law.

3
I.

THE PETITION PRESENTS AN IMPORTANT QUESTION
THAT WARRANTS THE COURT’S REVIEW
A. The Federal Circuit’s Decision Created Two
Related Circuit Splits

The government claims (at 11) that the petition
“does not identify” any circuit split. That is plainly incorrect.
1. The government offers no substantive response
to the first circuit split identified in the petition. Contrary to the Federal Circuit’s focus on the actions of an
individual decision-maker taking into account only the
individual’s knowledge, other courts of appeals review
the actions of the agency as a whole based on the information available to the entire agency. Pet. 10-12.
The government does not seriously dispute that a
court’s inquiry under the APA should focus on the
agency’s knowledge rather than the knowledge of the
individual who effectuated the agency’s position. The
government does not even attempt to rebut most of the
cases cited for that proposition. And for the one case it
does discuss, the government does not dispute that the
Fourth Circuit reviewed the actions of the Department
of Agriculture as a whole rather than focusing on the
subjective rationality of the individual agency employee who applied the agency’s unlawful policy to the
plaintiff. Dalton v. United States, 816 F.2d 971 (4th
Cir. 1987).
Instead of seriously engaging with the first circuit
split identified in the petition, the government offers a
single footnote downplaying that split because VCG
supposedly “invited” a “subjective inquiry” in this case
by arguing that the contracting officer acted pretextually. Opp. 9 n.4. But the government’s attempt to ex-

4
plain away the split identified in the petition rewrites
the Federal Circuit’s decision. While the court certainly discussed pretext in the course of its analysis, see
Pet. App. 8a-9a, it did not stop there. The Federal Circuit went on to hold that the contracting officer’s decision was lawful because the officer did not know at the
time that the agency’s decision to remove VCG from
VetBiz was unlawful. See Pet. App. 10a (a “contracting
officer must act in consideration of circumstances as
they exist at the time of his decision”).1
The decision below thus makes clear that the Federal Circuit’s arbitrary-and-capricious review focused
only on the subjective rationality of the individual government actor, rather than the conduct of the agency as
a whole. That holding squarely presents the first split
identified in the petition and warrants this Court’s review.
2. The government claims (at 11-12) that the Federal Circuit’s decision cannot have created any split because the panel majority supposedly “disclaimed”
Judge Dyk’s accusation that the court’s decision held
that “an agency’s decision based on an earlier, unlawful
action is rational unless the agency official making the
decision knew the earlier action was unlawful.” But the
majority’s response to Judge Dyk’s dissent only highlights the importance of the question presented in this
petition.

1

Indeed, the government acknowledges as much elsewhere in
its opposition. See Opp. 6 (recognizing that the Federal Circuit
held that the contracting officer acted lawfully in reliance on the
VA’s decision to remove VCG from VetBiz, and then “also rejected
petitioner’s assertion that the contracting officer had acted pretextually”).

5
In attempting to disclaim Judge Dyk’s description
of its holding, the majority pressed the same logic that
the government relies on it its opposition—namely,
that the contracting officer had no choice but to cancel
the solicitation because he lacked authority to consider
bids by someone not listed in VetBiz. Pet. App. 10a-11a
n.7. But that ruling walked straight into a second circuit split. The panel was acknowledging that the contracting officer’s decision flowed directly from the VA’s
earlier, unlawful decision to remove VCG from VetBiz.
See id. (acknowledging that, but for the VA’s removing
VCG from VetBiz, the contracting officer “would likely
have awarded the contract to VCG”). Yet the panel
nevertheless refused to invalidate the contracting officer’s decision solely because VCG’s removal had not
yet been found unlawful or set aside by a court at the
time he made his decision. Pet. App. 10a (“That the
Court of Federal Claims determined four months after
cancellation that [the removal from VetBiz was unlawful] does not retroactively render his actions irrational.”). That holding squarely presents the second split
identified in the petition because it upholds an agency
action that concededly flowed directly from an earlier,
unlawful agency action.
Far from being a narrow holding, the logic of the
Federal Circuit’s decision sweeps well beyond this case.
Individual employees of an agency likewise lack authority to deviate from agency regulations, but it would be
absurd to say that action on the basis of an unlawful
regulation is therefore shielded from review simply because the regulation had not yet been invalidated when
the action was taken. Other courts of appeals have thus
set aside agency actions premised on or flowing from
earlier unlawful agency action. See, e.g., United States

6
v. Nova Scotia Food Prods. Corp., 568 F.2d 240 (2d Cir.
1977); Dalton, 816 F.2d at 973-975.
The distinction the government attempts to draw
(at 13) between “direct application” of an invalid rule
and reliance on an unlawful action by another agency
employee is untenable. In Nova Scotia, the regulations
were invalid because the process for adopting them was
flawed. 568 F.2d at 252-253. The agency employees
taking the enforcement action did not themselves directly violate those procedural rules; rather, the enforcement action was unlawful because other parts of
the agency had not followed the proper procedures and
the flawed outcome of their actions provided the basis
for the enforcement action. See also Dalton, 816 F.2d
at 973-975 (invalidating agency decision based on memorandum that was itself procedurally flawed). The
same is true here. The decision to cancel the solicitation after opening the bids was based directly on VCG’s
unlawful removal from the database, and but for that
unlawful action, the VA “would likely have awarded the
contract to VCG.” Pet. App. 11a n.7
A hypothetical illustrates how far-reaching the
consequences could be if the government were allowed
to use its own unlawful action to justify depriving citizens of their statutory rights. Imagine that a person
leaving government employment wants to extend his
health insurance for a few months under COBRA, but
that for some reason the person’s name has been arbitrarily or unlawfully omitted from the list of departing
government employees that an individual officer in the
agency relies on to processes COBRA requests. The
employee finds out and fights to get back in the database, even going to court and prevailing in the face of
resistance by an unresponsive bureaucracy. But when
the dust clears, the individual agency employee who

7
processes COBRA requests says it is too late because
the employee was not in the database when the deadline passed. Under the panel and the government’s
reasoning, the former employee would be out of luck
because “[n]othing about” the individual employee’s
“decision was arbitrary or capricious” when viewed in
isolation. Opp. 9.
Even more alarmingly, the Federal Circuit’s logic
would apply no matter how egregious the agency’s violation. For example, suppose a veteran-owned business
were removed from VetBiz because of the owner’s race.
Then, when that decision was being challenged, a contracting officer disregarded the business’s bid because
it was not listed in VetBiz. Under the Federal Circuit’s
rule, the decision not to consider the business’s bid
would be lawful. VCG made this very point about outright discrimination in its petition, Pet. 19, and it
speaks volumes that the government does not even attempt to deny it.
3. Finally, the government faults the petition (at
11) for not identifying a split on “a precise legal question, such as the scope of a contracting officer’s authority.” But that argument ignores the unique nature of
the Federal Circuit. The Federal Circuit hears all appeals from the Court of Federal Claims, and its decisions set nationwide rules on subject matter within its
exclusive jurisdiction. One would not expect to see a
“precise” split in that context. The Federal Circuit’s
erroneous ruling will apply in all government contracting cases and in challenges to agency actions reviewable only by the Federal Circuit. See Pet. 14-15. That
alone warrants review.
The conflict between the legal principles the Federal Circuit applied and what other courts of appeals

8
have done in analogous situations only strengthens the
need for review. Pet. 10-14. Those cases, by nature of
the Federal Circuit’s jurisdiction, involve slightly different facts. But the rule that they apply is at odds
with what the Federal Circuit did here, showing that
the Federal Circuit has split with other courts of appeals on a fundamental question of administrative law.
B. The Government’s Extensive Discussion Of
Remedies And Discretion Is Irrelevant To
The Question Presented
The government spends a significant portion of its
opposition trying to transform the question presented
into a narrow dispute about the appropriate remedy for
the VA’s unlawful decision to remove VCG from VetBiz in the first place. See Opp. 9-11, 12-14. The government points out that VCG already received bid
preparation costs, reinstatement in the database, and
an extension of its registration, see id. 13-14, and thus
concludes that this case is merely about whether the
Federal Circuit properly exercised its equitable discretion to deny VCG additional relief in the form of an injunction setting aside the VA’s decision to cancel the
bid. But the government’s extensive discussion of the
Federal Circuit’s discretion in awarding equitable remedies bears no resemblance to what the Federal Circuit
actually held in this case. The Federal Circuit did not
decide this case as a matter of equitable discretion. To
the contrary, it acknowledged that, in evaluating a bid
protest, the court must “follow the [APA] and set aside
the agency action ‘if it is arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.’”
Pet. App. 7a. The court then went on to evaluate the
underlying merits of the agency’s decision, ultimately
holding that the VA’s decision to deny VCG’s bid and

9
cancel the solicitation in reliance on VCG’s unlawful exclusion from VetBiz was lawful. The question presented in the petition challenges the legal predicate for that
decision upholding the agency’s action as lawful.
The government suggests (at 7-8, 9-11) that VCG
might have raised an alternative theory of relief below
or in the petition—that, “even if the cancellation itself
was lawful, the [Court of Federal Claims] was required
to set it aside in order to provide complete relief for a
different unlawful agency action.” But the petition is
emphatically not asking this Court to consider what
should have happened “even if the cancellation itself
was lawful.” Indeed, as the government recognizes,
neither the briefing below nor the Federal Circuit’s decision address the hypothetical theory the government
now proposes. See Opp. 8 (“Petitioner’s briefs before
the panel did not assert [the theory] that vacatur of the
cancellation was an essential element of relief for its
earlier unlawful removal from VetBiz.”); id. (“The panel
majority likewise did not address that remedial issue.”).
The question presented here is whether the VA’s cancellation was unlawful because it followed directly from
an earlier unlawful agency action, just as any good faith
agency action would be unlawful if solely based on an
invalid regulation. As discussed above, that question
warrants the Court’s review. Supra 4-7.
The case the government relies (at 10) on for the
proposition that “courts in bid-protest suits enjoy their
traditional equitable discretion” actually undermines
the government’s position. PGBA, LLC v. United
States, 389 F.3d 1219 (Fed. Cir. 2004), considered
whether a provision of the Administrative Dispute
Resolution Act of 1996 (“ADRA”) incorporates the
APA’s requirement that challenged government action
must be “set aside” if it is found to be arbitrary and ca-

10
pricious. See id. at 1224. The Federal Circuit held that
the ADRA, unlike the APA, gives the Court of Federal
Claims discretion to decide whether to issue injunctive
relief. Id. at 1226-1227. PGBA thus reinforces that
where (as here) a court reviews a bid protest under the
APA, it must set aside the challenged agency action if it
is found to be arbitrary, capricious, or otherwise unlawful.
II. THE CASE IS NOT MOOT
The government’s argument that the petition
should be denied because the record does not indicate
whether there have been changes in the status of the
roofing repair contract inverts the parties’ obligations.
As this Court has held, “[i]f a party to an appeal suggests that the controversy has, since the rendering of
judgment below, become moot, that party bears the
burden of coming forward with the subsequent events
that have produced that alleged result.” Cardinal
Chem. Co. v. Morton Int’l, Inc., 508 U.S. 83, 98 (1993)
(emphasis added). The government points to no evidence that the status of the roof repair project has
changed. This is presumably because it knows that
more than a year remains on the contract. See
https://www.usaspending.gov/#/award/CONT_AWD_36
C24218C0115_3600_-NONE-_-NONE-.
Even if the government had demonstrated that the
status of the roof repair had changed in a manner precluding the injunctive relief VCG seeks, review of the
Federal Circuit’s opinion still would be appropriate.
The government cites Kingdomware Technologies, Inc.
v. United States, 136 S. Ct. 1969 (2016), but it in fact
demonstrates that review is not precluded. In Kingdomware, this Court recognized that there was “no live
controversy in the ordinary sense … because no court

11
is now capable of granting the relief the petitioner
seeks.” Id. at 1975. The Court nevertheless reviewed
the bid protest on the merits, reasoning that the issue
was likely to recur “in circumstances where the period
of contract performance is too short to allow full judicial
review before performance is complete.” Id. at 1976.
VCG challenges more than a particular decision on
a particular contract; it challenges the legal position
that an agency can unlawfully exclude a contractor
from qualifying to bid for a contract and then lawfully
cancel the contract for lack of eligible bids. As a frequent bidder for government contracts, VCG has previously had its eligibility challenged by disappointed
adversaries, and there is a reasonable possibility that it
will again be temporarily removed from VetBiz while
eligibility issues are litigated. VCG therefore may be
excluded from contracts that it should be allowed to bid
on—and those contracts in turn may be completed before the judicial process can be completed. See Kingdomware, 136 S. Ct. at 1976 (recognizing “an exception
to the mootness doctrine for a controversy that is capable of repetition, yet evading review.” (internal quotation marks omitted)). This matter therefore would not
be moot even if the project status had changed.
In any event, if there were legitimate concerns
about mootness, the proper course would not be to deny the petition. The long-established practice of this
Court in such circumstances is “to reverse or vacate the
judgment below and remand with a direction to dismiss.” Munsingwear, 340 U.S. at 39. In the alternative, the Court would need to remand for the Federal
Circuit to address mootness.

12
CONCLUSION
The petition should be granted. In the alternative,
the decision below should be vacated.
Respectfully submitted.
JOSEPH A. WHITCOMB
ANDREW R. NEWELL
WHITCOMB, SELINSKY,
MCAULIFFE, P.C.
2000 S. Colorado Blvd.
Tower 1, Suite 9500
Denver, CO 80222
(303) 534-1958

DECEMBER 2019

THOMAS G. SAUNDERS
Counsel of Record
JOSHUA M. KOPPEL
JUSTIN BAXENBERG
JACK STARCHER
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6536
thomas.saunders@wilmerhale.com

